HHS/OIG-Audit--"National Review of General and Administrative and Fringe Benefit Costs At Hospitals, (A-03-92-00017)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"National Review of General and Administrative and Fringe Benefit Costs At Hospitals," (A-03-92-00017)
August 19, 1994
Complete
Text of Report is available in PDF format (1.9 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our audits of the general and administrative (G&A) and fringe benefit (FB)
costs at 19 specific hospitals and 2 hospital corporations' home offices that participate in the Medicare program. Our
audits identified unallowable G&A and FB costs of $50.7 million included in the Fiscal Year 1991 Medicare cost reports
of these providers. We also identified $3.5 million of costs which we have labeled as "costs for concern" because
of their tenuous relationship to patient care. We have issued audit reports to the providers included in the national review,
making recommendations to resolve the local issues that we identified. In this report, we are recommending that the Health
Care Financing Administration revise the Provider Reimbursement Manual to provide additional clarification on the allowability
of specific types of G&A and FB costs.